                     SA-OT-07-001 Letter to Senator Grassley.txt

Office of Inspector General
December 15, 2006

Senator Charles E. Grassley, Chairman
United States Senate Committee on Finance
135 Hart Senate Office Building
Washington, DC 20510-1501
Dear Mr. Chairman:
In your May 31, 2005, letter to the Office of Inspector General (OIG), you inquired
about
efficiencies and cost savings initiatives within the Postal Service, and whether
savings
went to the rate payers. In March 2006 we provided you with a report detailing
savings
derived from the already completed initiatives. As a follow-up we are providing you
with
information regarding an additional cost savings initiative identified, resulting
from the
transition of certain jurisdiction from the U.S. Postal Inspection Service (USPIS)
to the
OIG. At the time of our March 2006 report, the transition was not complete. However,
in January 2007, the transition will be completed and the savings identified. As we
agreed, we are providing the information concerning that initiative and the savings
that
will result.
The Postal Service has the opportunity to realize additional organizational
efficiencies

and cost savings based on the recent transition of investigative jurisdiction for
the

internal crimes program from the USPIS to the OIG. This transition should improve
the

effectiveness of both organizations, will provide the OIG the investigative
jurisdiction

Congress intended, and will result in estimated cost savings of $50 million
annually.

With the creation of an independent OIG in 1996, Congress intended for the Postal
Service to transfer all congressionally mandated OIG audit and investigative
functions to
the new OIG. However, only the audit function was transferred at that time, and the
USPIS continued its internal investigative function. The OIG also created its own
investigative office, pursuant to the mandate of the 1996 amendments to the
Inspector
General Act of 1978 (the Act). The Act clearly requires the OIG to investigate
internal
matters and report on the conditions affecting the integrity of the workforce to the

agency head and to Congress.

To resolve the jurisdictional issues, the OIG and USPIS undertook several actions.
First, we agreed to form a strategic alliance with USPIS in 2004 to ensure
                                       Page 1
                    SA-OT-07-001 Letter to Senator Grassley.txt
compliance
with the Act by involving the OIG in employee investigations. In a second phase, the

two organizations agreed on exclusive jurisdictional responsibilities and identified
shared work in a Memorandum of Understanding (MOU) dated April 29, 2005.
On March 10, 2006, the Chairman of the Board of Governors and the Postmaster
General signed a memorandum announcing the completion of the transfer of
investigative jurisdiction for Postal Service employees from the USPIS to the OIG.
By
January 2, 2007, the OIG will have full responsibility for the investigation of
internal
crimes, including employee misconduct and internal mail theft investigations, as
required by the Act. Responsibility for security and external crimes investigations
remains with the USPIS.

Lastly, in April 2006, the Chairman of the Board of Governors and the Postmaster
General issued a memorandum articulating principles for implementing the transition.

Among them, the Postmaster General requested that the OIG conduct these
investigations with fewer resources than the USPIS had used. We estimate that the
USPIS' cost to conduct the work being transferred to the OIG was $110 million
annually.
The OIG will conduct the work with fewer personnel at an estimated cost of $60
million.
Thus, as a result of the transition, the Postal Service will save an estimated $50
million
annually.

The transition of internal crimes will provide the OIG with full investigative
jurisdiction as

intended by the Act, increase efficiency, and improve service to stakeholders. In
early

2007, the OIG plans to conduct a review of cost savings related to the transition of
the

internal crimes program from the USPIS to the OIG. We will assess the actual savings

and determine whether the USPIS appropriately reduced its costs to allow the Postal

Service to realize the maximum savings.
If you have any questions or need additional information, please contact me, or have


your staff contact Scott Wilson, Deputy Inspector General, at (703) 248-2100.
Sincerely,
David C. Williams
Inspector General
cc: L. Malcolm, USPS




                                      Page 2
